CERTIFICATE OF SERVICE

I hereby certify that I have this day served the following parties with
Petition for Writ of Certiorari:
Dallas R. Ivey
Christopher Reading
3575 Piedmont Road NE
Fifteen Piedmont Center, Suite 500
Atlanta, Georgia 30305
By USPS with sufficient postage affixed thereon to assure delivery.

Respectfully submitted this 26th day of April, 2021.

>V\ ,

Pamela M. Timbes
304 Carnoustie
St. Simons Is., GA 31522
912-222-6773
ptimbes@gmail.com
PRO SE PETITIONER

44

